U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

August 18, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Bernard Stokeling v. United States of America,
S.Ct. No. 20-5157

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 9, 2020,
and placed on the docket on July 24, 2020. The government’s response is due on August 24,
2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including September 23, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-5157
STOKELING, BERNARD
USA

BRENDA GREENBERG BRYN
FEDERAL PUBLIC DEFENDER
ONE EAST BROWARD BOULEVARD
STE. 1100
FORT LAUDERDALE, FL 33301
954-356-7436
BRENDA_BRYN@FD.ORG

